C48
Signed by Judge Victor A. Bolden on 10/10/2019.
(Conde, Djenab)
3:17-cv-02066-VAB Notice has been electronically
mailed to:
3:17-cv-02066-VAB Notice has been delivered by other
means to:
Xiu Jian Sun
54-25 153rd St 2FL
Flushing, NY 11355
https://ctd-ecf.sso.dcn/cgi-bin/Dispatch .pl?8231582049
20612

CERTIFICATE OF SERVICE
I hereby certify under penalty of perjury that on
this 22nd day of October, 2019, I caused to be placed in
the United States mail (first-class postage paid), copies
of a "Notice of Appeal" address as follows:
To: Robert N. Chatigny
U.S. District Court District of Connecticut
450 Main Street
Hartford, Connecticut 06103
Dated: October 22, 2019
Simon Chen

D1
APPENDIX D
Case 19-3563, Document 9, 11/07/2019, 2700693,
Pagel of 2
ACKNOWLEDGMENTAND NOTICE OF
APPEARANCE
Short Title: THE CHURCH OF JESUS CHRIST OF
LATTER- DAY SAINTS. SERVANT: XIU JIAN SUN.
THE SPIRITUAL ADAM V. Pharisees: ROBERT N.
CHATIGNY.
Docket No.: 19-3563
Lead Counsel of Record (name/firm) or Pro se Party
(name): Xiu Jian Sun, the spiritual Adam
Appearance for (party/designation): Xiu Jian Sun, the
spiritual Adam
DOCKET SHEET
ACKNOWLEDGMENT/AMENDMENTS
Caption as indicated is:
x_ Correct
__Incorrect. See attached caption page with
corrections.
Appellate Designation is:
X Correct
__Incorrect. The following parties do not wish to
participate in this appeal:
Parties:
__ Incorrect. Please change the following parties'
Correct Designation
designations: Party
Contact Information for Lead Counsel/Pro Se Party is:

D2
x Correct
__Incorrect or Incomplete, and should be amended as
follows:
Name: _
Finn:
__
Address:
Telephone:
Fax:___
Email:___
RELATED CASES
__ This case has not been before this Court previously.
X This case has been before this Court previously. The
short title, docket number, and citation are: Docket1#:
16-3557, The Pharisees even swallowed up camels.
__Matters related to this appeal or involving the same
issue have been or presently are before this Court. The
short titles, docket numbers, and citations are:______
CERTIFICATION
I certify that (x) I am admitted to practice in this Court
and, if required by LR 46. l(a)(Z), have renewed my
admission on
OR that ( ) I applied for
admission on
or renewal on
, If
the Court has not yet admitted me or approved my
renewal, I have completed Addendum A.
Signature of Lead Counsel of Record:_____________
Type or Print Name:
OR
Signature of pro se litigant: Xiu Jlan Sun, the spiritual
Adam
Type or Print Name: Xiu Jlan Sun, the spiritual Adam
(The Church of Jesus Christ of Latter-day saints)
X I am a pro se litigant who is not an attorney.
__I am an incarcerated pro se litigant.

D3
Case 19-3563, Document 10, 11/07/2019, 2700696,
Page 1 of 2
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
CIVIL APPEAL TRANSCRIPT INFORMATION
(FORM D-P) FOR PRO SE APPELLANTS
A PRO SE APPELLANT MUST FILE THE ORIGINAL
OF THIS FORM WITH THE CLERK OF THE
SECOND CIRCUIT IN ALL CML APPEALS WITHIN
14 CALENDAR DAYS AFTER FILING A NOTICE OF
APPEAL.
REOEIVED
2019 NOV-7 AM 8:56
THIS SECTION MUST BE
CLERK’S OFFICE
COMPLETED BY APPELANT
U.S. COURT OF APPEALS
CASE TITLE:
COUNTER 1
THE CHURCH OF JESUS CHRIST
OF LATTER-DAY SAINTS SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Plaintiff-Appellant
Docket Number:
19-3563
v.
Pharisees: ROBERT N. CHATIGNY,
Defendant-Appellee

DISTRICT: SECOND COURT
JUDGE: Victor A. Bolden
COURT REPORTER________

D4
APPELLANT: Xiu Jian Sun, the spiritual Adam
PRO SE APPELLANT: 5425 153^ St.. Flushing. NY
11355. 646-675-0308
Check the applicable provision:
X I am ordering a transcript.
_I am not ordering a transcript
Reason for not ordering a transcript:
_Copy is already available
_No transcribed proceedings
_Other (Specify in the space below):
PROVIDE A DESCRIPTION, INCLUDING DATES,
OF THE PROCEEDINGS FOR WHICH A
TRANSCRIPT IS REQUIRED (i.e., oral argument,
order from the bench, etc.)
METHOD OF PAYMENT
_ CJA Voucher (CJA 21)
Funds

INSTRUCTIONS TO COURT REPORTER:
_ PREPARE TRANSCRIPT OF PRE-TRIAL
PROCEEINGS
_ PREPARE TRANSCRIPT OF TRIAL
_ PREPARE TRANSCRIPT OF OTHER POST-TRIAL
PROCEEDINGS
_OTHER (Specify In the space below):
DELIVER TRANSCRIPT TO: (APPELLANT'S
NAME, ADDRESS, TELEPHONE)

D5
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
54-25 153rd St.. Flushing, NY 11355
(646) 675-0308
I certify that I have made satisfactory arrangements
with the court reporter for payment of the cost of the
transcript. See FRAP 10(b). I understand that unless I
have already ordered the transcript, I shall order its
preparation at the time required by FRAP and the
Local Rules.
APPELLANT' S SIGNATURE
Xiu Jian Sun, the spiritual Adam

DATE
11/05/2019

COURT REPORTER ACKNOWLEDGMENT: This
section is to completed by the court reporter. Return
one copy to the Clerk of the Second Circuit.________
DATE ORDER RECEIVER_______
ESTIMATED COMPLETION DATE
ESTIMATED NUMBER OF PAGES.
SIGNATURE OF COURT REPORTED
DATE____________

D6
Case 19-3563, Document 11, 11/07/2019, 2700702,
Pagel of 2
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
PRO SE SCHEDULING NOTIFICATION (NON AGENCY CASE)
THIS SECTION MUST BB COMPLETED BY
APPELLANT
REOEIVED
CASE TITLE:
2019 NOV-7 AM 8:56
CLERK’S OFFICE
THE CHURCH OF JESUS
U.S. COURT OF
CHRIST OF LATTER-DAY
APPEALS
SAINTS SERVANT: XIU JIAN
COUNTER 1
SUN, THE SPIRITUAL ADAM
Plaintiff-Appellant
v.
Pharisees: ROBERT N. CHATIGNY,
Defendant-Appellee
USCA DOCKET NUMBER:
DISTRICT: 3:17-cv-02066-VAB
DISTRICT/AGENY NUMBER:______________
APPELLANT: Xiu Jian Sun. The spiritual Adam,
The Church of Jesus Christ of Latter-day saints
APPELLANT’S ADDRESS: 5425 153rd St.. Flushing.
NY 11355.
APPELLANT’S PHONE NUMBER: 646-675-0308

D7

Pursuant to Local Rule 31.2(a)(1)(A), I request that
my brief and appendix be accepted for filing no later
than 01/01/2020. This date is within 91 days of the
later of (1) the receipt of the last transcript in my case
or (2) when no transcript is ordered, the required filing
date of my Form D-P with the Court.
I understand that if 1 fail to return this signed
scheduling proposal as stated above, the Court will
issue an order setting a 40-day deadline to file my brief.
If I fail to file my brief: the case may be dismissed.
I also understand that in the absence of
extraordinary circumstances, such as a personal
illness or family death, the Court will not grant a
motion to extend the time to file a brief.
Local Rule 27.1.(f)(1).
11/05/2019
Date
Xiu Jian Sun, the spiritual Adam
Signature of Appellant/Petitioner
Xiu Jian Sun, the spiritual Adam

Rev. May, 2011

D8
Case 19-3563, Document 14, 11/26/2019, 2716649,
Pagel of 1
United States Court of Appeals for the Second
Circuit Thurgood Marshall U.S. Courthouse
40 Foley Square, New York, NY 10007
ROBERT A. KATZMANN
CHIEF JUDGE
Date: November 26, 2019
Docket#: 19-3563mv
Short Title: Church of Jesus Christ of Latt v. Chatigny
CATHERINE O'HAGAN WOLFE
CLERK OF COURT
DC Docket#: 17-cv-2066
DC Court: CT (NEW HAVEN)
DC Judge: Bolden

NOTICE OF CASE MANAGER CHANGE
The case manager assigned to this matter has been
changed.
Inquiries regarding this case may be directed to
212-857-8534.

